<html>
<title> - HOW THE DOMESTIC NUCLEAR INDUSTRY BOOSTS LOCAL ECONOMIES, CURBS EMISSIONS, AND STRENGTHENS NATIONAL SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                   HOW THE DOMESTIC NUCLEAR INDUSTRY
                BOOSTS LOCAL ECONOMIES, CURBS EMISSIONS,
                   AND STRENGTHENS NATIONAL SECURITY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2019

                               __________

                           Serial No. 116-14

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




       Available via the World Wide Web: http://science.house.gov
       
       
       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-253 PDF                WASHINGTON : 2019            
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, 
CHARLIE CRIST, Florida                   Puerto Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           VACANCY
BILL FOSTER, Illinois
SEAN CASTEN, Illinois

                         C  O  N  T  E  N  T  S

                              May 3, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6
    Written Statement............................................     9

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    12

                               Witnesses:

Dr. Peter Lyons, Retired, DOE Assistant Secretary for Nuclear 
  Energy, and former NRC Commissioner
    Oral Statement...............................................    14
    Written Statement............................................    16

Admiral William Fallon, Retired, United States Navy
    Oral Statement...............................................    23
    Written Statement............................................    26

Tina M. Taylor, Deputy Chief Nuclear Officer and Senior Director 
  of Research and Development, Electric Power Research Institute
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Jay Apt, Professor, Carnegie Mellon University's Tepper 
  School of Business, and the Department of Engineering and 
  Public Policy
    Oral Statement...............................................    39
    Written Statement............................................    41

Discussion.......................................................    49



                   HOW THE DOMESTIC NUCLEAR INDUSTRY



                        BOOSTS LOCAL ECONOMIES,



                          CURBS EMISSIONS, AND



                     STRENGTHENS NATIONAL SECURITY

                              ----------                              


                          FRIDAY, MAY 3, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
the Shippingport Borough Municipal Building, 163 State Route 
3016, Shippingport, Pennsylvania 15077, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamb, Stevens, Foster, and Casten.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Chairman Lamb. All right. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
    Good morning to everybody, and welcome to today's hearing, 
which is called, ``How the Domestic Nuclear Industry Boosts 
Local Economies, Curbs Emissions, and Strengthens National 
Security.''
    I am Representative Conor Lamb of Pennsylvania's 17th 
District covering Beaver County, where we are now. And I'd like 
to begin first by welcoming all of the guests who have traveled 
here from outside of western Pennsylvania to visit us today. We 
are lucky to have several of my colleagues from the Committee 
on Science, Space, and Technology, who will introduce 
themselves and talk a little bit about their districts as you 
go on, but they come from the great States of Illinois and 
Michigan. I want to thank you for taking the time to visit us 
here and learn about our local nuclear power issues.
    I also really want to thank our witnesses, who we are going 
to introduce individually as well, and you'll be hearing a lot 
from them today. But they have devoted their immense 
intellectual resources and energies to this problem that 
affects us and hits us really close to home here. So on behalf 
of all the people that I represent, especially here in Beaver 
County but really all over western Pennsylvania, I just want to 
thank all of you for taking an interest in us and spending some 
time here today.
    I also want to recognize we have two of our local 
government officials with us here, Commissioners Dan Camp and 
Tony Amadio from Beaver County, who have done a lot to fight 
for the people working at this plant and all over Beaver 
County, and we're happy that you were able to take time to be 
with us today.
    We have represented as well some of our State 
officeholders. I know State Representative Rob Matzie, who's an 
active member of the Nuclear Caucus in Harrisburg, would love 
to be here, and he has done a lot to carry the fight for you in 
Harrisburg, so I just want to recognize his work. And we have a 
representative from--State Senator Elder Vogel as well, who is 
in the trenches with us on this one. And we really appreciate 
their efforts and their ability to follow us here today.
    We also have several of our tradesmen and women from IBEW's 
(International Brotherhood of Electrical Workers) Local 712 and 
29, and I really want to thank them for taking some time. We 
have a representative of the painters' union, and it's very 
good of you to come here and remind us all that at the heart of 
all this are the jobs that are providing for families here in 
Beaver County and outside of it. Really all over the region, 
tradesmen and women come and they operate and maintain and 
upgrade this plant, and we have to always remember that.
    Where we are right now today--we're holding this hearing 
here because we're in the shadow of the first-ever civilian 
nuclear power plant in the United States. That started right 
here in western Pennsylvania. And I think it's very important 
for us to remember that there was a time in World War II and 
shortly after where we were bold and adventurous enough to do 
something that, at that time, people actually thought was 
impossible.
    No one would have believed just a few years before this 
place was built that it was possible to take a weapon of war, 
which is how people thought of nuclear energy, and turn it into 
an instrument of peace. But President Eisenhower knew that that 
could be done. He knew that it had to be done. And I think we 
should all feel an immense pride as western Pennsylvanians that 
when it came time to do this, President Eisenhower chose 
Shippingport here in Beaver County for that project.
    A lot of people know that Pittsburgh was already famous for 
contributing to the war effort through the steel industry, but 
not a lot of people know that we are the leaders in nuclear 
power as well. And it's amazing. I think in some ways we can 
feel even more pride about our nuclear heritage because, you 
know, steel came in large ways because we had things in the 
ground in western Pennsylvania that nobody else had, and we had 
a river system and all that kind of thing. The nuclear 
industry, it wasn't because of something specific that we only 
had here.
    But I think President Eisenhower knew about the power of 
our scientific and research community, as represented by the 
Bettis Atomic Power Lab, and our incredible businesses Duquesne 
Light and Westinghouse, and most importantly, the abilities and 
courage of our people. They knew that they could get the job 
done. So that's why I think many of us are so proud.
    When this first started in the 1950s, people were very 
uneasy about the idea of civilian nuclear power in their 
backyard, and I read that they actually--people were asking 
whether their lightbulbs would burn twice as bright in their 
homes once the power started coming from nuclear energy because 
they just thought it was that scary and powerful. But people 
took the risk here anyway. And what is incredible is since 
then, since construction began, I believe, in 1954, generations 
of members of the same families of hardworking tradesmen and 
woman, of engineers, of scientists, of nuclear officers have 
worked to not only maintain these plants but to upgrade them, 
rebuild them.
    And now, the Beaver Valley Nuclear Station that has 
replaced Shippingport, it's one of the safest and most reliable 
power plants of anywhere in the world. It regular score--
regularly scores among the tops in Pennsylvania and in the 
country, and that is solely due to the dedication and 
professionalism of the men and women that work there. And we 
got a chance to see that on our way here today. I want to thank 
the FirstEnergy folks for taking us on such a great tour and 
for doing such an amazing job running that plant.
    Unfortunately, today, times have changed a little bit 
compared to the 1950s and 1960s when this all got underway, and 
the Beaver Valley Station, many of you know, is scheduled to 
close in 2021 if we don't do something. And I want to repeat 
that. It's not just at risk of closing; it is scheduled to 
close.
    There are many reasons for that, but the fact remains that 
those thousands and thousands of people that worked so hard to 
build this industry here in our backyard, who worked so hard to 
provide power for all of us, provide for their own families, 
and contribute to the national security of this country, they 
deserve a lot better than to see their life's work go under in 
just a couple short years when that's avoidable. That does not 
have to be the outcome.
    And I think right now that their work has never been more 
important. See, the electricity that is produced at Beaver 
Valley is completely carbon-free. And because of the nuclear 
industry in Pennsylvania, we actually get 40 percent of our 
power across the State from nuclear energy, carbon-free power, 
40 percent. It makes us a leader in the United States. I'm 
always struck by the fact that many of our friends and 
neighbors don't know that, that we--that this nuclear industry 
is such a huge part of our economy and that we're already 
getting 40 percent of our power carbon-free because of its 
contribution.
    If we allow these plants to go under, a lot of that power, 
if not all of it, will be replaced by fossil fuels. We will 
never reach our goals when it comes to the climate and the 
environment if we allow nuclear energy to collapse.
    The reason I talked about President Eisenhower today--and 
if you look over to the right here, you're going to see a 
picture of him waving this magic wand when they started 
construction of the power plant. He was so proud that this was 
his baby, this was his darling, that he supervised the 
construction of it from beginning to end. He is remembered for 
that level of focus and attention to detail in winning the war 
in World War II and then preserving the peace and building our 
national infrastructure like this plant.
    And back then, people knew that all those things were 
related, and that's what we're going to talk about here today, 
how it's not just about the local economy and local power, but 
it's about the national security of the entire United States 
why we have to preserve this industry.
    And I think if we could bring President Eisenhower back 
today and ask him how he would address the challenges of the 
21st century after he was so successful meeting the challenges 
of the 20th, I think he would recognize them and he would say 
you've got to build and preserve this infrastructure again. 
You've got to renew it for a new century and new challenges 
like climate change and that we cannot afford to let these 
things go under.
    So that's why we're really here today. We're here to talk 
about how we protect these jobs for our tradesmen and women, 
for our veterans. So many of the employees in the nuclear 
industry are veterans of the U.S. Navy's nuclear program, for 
our scientists.
    And finally, the issue that we'll touch on in a little more 
detail is how there are going to be many nuclear power plants 
built overseas in the decades to come. There's about a billion 
people in the world today that still don't have electricity. 
And when our competitor nations like Russia and China look at 
that fact, they see a market. They see a market where hundreds 
of billions if not trillions of dollars to build these plants, 
to make all the parts that supply them, to send their 
scientists and people overseas to build them, the United States 
used think that way.
    We used to go overseas and share our technology. In fact, 
there were people from the Shippingport plant here that went to 
Japan in the 1960s to help them build their nuclear power. That 
is world leadership, and that's making sure that this 
technology is done right. We can get back to that way of 
thinking again. There's no way that we can't. But there's a lot 
that we need to do. So that's what we're here to talk about 
today.
    [The prepared statement of Chairman Lamb follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Lamb. If there are any Members who wish to add 
their own additional opening statements to the record, you can 
do so at this point.
    [The prepared statement of Chairwoman Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Not seeing any, I would like to introduce 
our witnesses so everyone knows who we have with us today. And 
we are extremely lucky to have this panel with us.
    So I'll start with Dr. Pete Lyons, who is a former 
Department of Energy (DOE) Assistant Secretary for Nuclear 
Energy and also a former Commissioner at the Nuclear Regulatory 
Commission (NRC). He was nominated by President Obama and 
confirmed by the Senate as Assistant Secretary for Nuclear 
Energy in 2011. Before being at the Department of Energy, Dr. 
Lyons was appointed by President Bush as a Commissioner at the 
Nuclear Regulatory Commission in 2005, so he's served under 
multiple Administrations. He now consults on several corporate 
and laboratory boards, and he assists several international 
groups. We're very thankful to him for traveling all the way 
from Colorado to be with us here today.
    Next to Dr. Lyons we had Admiral William Fallon, who is 
retired from the United States Navy after a 40-year career of 
military and strategic leadership. He has previously held the 
positions of the Commander of U.S. Central Command and U.S. 
Pacific Command, Presidential Envoy to Japan, and Vice Chief of 
the Navy. I believe he was Vice Chief of the Navy on September 
11th, 2001, and personally led some of the response that our 
Nation had on that day and afterward. He currently serves on 
many defense boards and consults in Washington, D.C., and we're 
incredibly thankful to have him with us today as well.
    Next to Admiral Fallon is Ms. Tina Taylor, who is the 
Deputy Chief Nuclear Officer and Senior Director of Research 
and Development at the Electric Power Research Institute. She 
is responsible for a wide array of research addressing the most 
technically challenging issues facing nuclear power, and her 
team is responsible for work in the areas of maintenance, 
engineering, equipment reliability, instrumentation and 
control, risk and safety management. All the things that make 
these nuclear power plants actually work and be safe, Ms. 
Taylor can talk to us about today, including what it takes to 
decommission some of these plants.
    Next to Ms. Taylor is a hometown boy, Dr. Jay Apt, who's a 
Professor at the Tepper School of Business and Department of 
Engineering and Public Policy at Carnegie Mellon University. He 
is also the Co-Director of the Carnegie Mellon Electricity 
Industry Center, which is actually one of the world's largest 
engineering business centers focused on the electric industry. 
He's a fellow of the American Association for the Advancement 
of Science. He received the National--the NASA (National 
Aeronautics and Space Administration) Distinguished Service 
Medal and the Metcalf Lifetime Achievement Award for 
significant contributions to engineering. He's also an 
astronaut by trade and will be talking about a wide array of 
things as they relate to nuclear power for us today.
    So, as our witnesses should know, you will each have 5 
minutes for your spoken testimony. Your written testimony has 
already been included in the record of this hearing, and when 
you have completed your spoken testimony, we will begin with 
questions from the Members. We will probably do multiple 5-
minute rounds of questions, so you'll have a chance to share 
everything that you have to share with us today. Again, I'm 
just incredibly thankful to have you here with us, and we will 
start now with Dr. Pete Lyons.

                  TESTIMONY OF DR. PETER LYONS,

           RETIRED DOE ASSISTANT SECRETARY FOR NUCLEAR

               ENERGY, AND FORMER NRC COMMISSIONER

    Dr. Lyons. Thank you, Chairman Lamb, and also 
Representatives Stevens, Foster, and Casten. It's really an 
honor to testify in today's hearing.
    As you just heard, I retired as the Assistant Secretary for 
Nuclear Energy after prior service as Commissioner of the 
Nuclear Regulatory Commission and also many years as a Science 
Advisor on U.S. Senate staff. I also held many positions at Los 
Alamos National Laboratory in many decades there. In 
retirement, I've co-chaired the American Nuclear Society's 
Committee on Nuclear in the States, which published a toolkit 
to provide States with options to protect their nuclear plants. 
We also published the ``U.S. without Nuclear Energy, a Report 
on the Public Impact of Plant Closures.''
    I now serve as the Subcommittee Co-Chairman for the Energy 
Department's Nuclear Energy Advisory Committee. Their recent 
recommendation from that subcommittee was that policy changes 
are essential to ensure survival of the existing fleet of the 
U.S. commercial nuclear plants.
    Our nuclear power plants, the most resilient component of 
our Nation's electrical grid, represent a vital national 
resource. Former Governor Ridge has said that the goal of grid 
reliance cannot be met without nuclear power. When the 18-month 
fuel supply at a typical nuclear plant is contrasted with needs 
for constant coal shipments or operating gas pipelines, the 
role of nuclear power is simply beyond question. They provide 
confidence that power will be available as needed. They also 
contribute nationally about $2 billion in State taxes, $10 
billion in Federal taxes, and add about $60 billion to the 
Nation's GDP.
    In 2018, the national average for nuclear generation cost 
was 3.2 cents per kilowatt hour, very low. But even that low 
price isn't always sufficient for profitability when nuclear 
energy's attributes are not compensated by electricity market 
structures. Low gas prices are impacting economic 
sustainability of nuclear power plants, and State mandates for 
intermittent renewable energy plus Federal and State tax 
credits for renewables have further undermined the economics of 
nuclear power.
    These factors are leading some nuclear plants to close. 
More early closures could force closure of all--I say all our 
nuclear power plants. Closure of nuclear plants, as you said, 
increases fossil fuel use and emissions. Nuclear plants provide 
more than half of our Nation's emission-free electricity, 
enabling clean air and addressing climate change. Energy 
Secretary Perry has said, ``I don't know how anybody who cares 
about the climate can't speak for nuclear energy.''
    In Pennsylvania, your nuclear plants provide 42 percent of 
your electricity and about 94 percent of your clean energy. 
There are 5,000 workers in your nuclear plants with over 500 
companies in Pennsylvania supporting the nuclear industry. Your 
Governor issued an order to slash emissions. If your plants 
close, that won't happen, and Pennsylvania would be transformed 
from a power exporter to a power importer. Your Nuclear Energy 
Caucus reported that your nuclear plants reduced annual 
electric bills in Pennsylvania by about $800 million.
    Unfortunately, whenever preservation of nuclear power 
assets is discussed, it's fought by natural gas and sometimes 
by renewable companies, despite the fact that a diverse energy 
supply is absolutely vital to consumers. When these groups 
argue against nuclear power, in my mind, they are certainly not 
arguing in the best interest of the public.
    Fuel diversity is an essential, necessary requirement for a 
stable grid. Former Governor Ridge noted, ``Only an electric 
grid built on diverse and stable sources of energy can 
withstand evolving threats and make sure the lights stay on.''
    Our nuclear power plants also provide vital national 
security benefits. Our nuclear navy and weapons programs are 
supported by the infrastructure of nuclear power. In addition, 
when U.S. companies export their designs and expertise, they 
also export U.S. safety and nonproliferation standards. But 
now, international construction is being dominated by Russia 
and China, so they will be setting future international safety 
and nonproliferation norms, and the U.S. loses influence and 
jobs.
    Pennsylvania legislators are considering two important 
bills to preserve your nuclear power. As one deeply concerned 
about the energy future we leave for our children and 
grandchildren, it's my sincere hope that the ideas in these 
bills enable a future for nuclear energy in Pennsylvania.
    Thank you.
    [The prepared statement of Dr. Lyons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you, Dr. Lyons.
    Admiral Fallon.

              TESTIMONY OF ADMIRAL WILLIAM FALLON,

                   RETIRED, UNITED STATES NAVY

    Adm. Fallon. Mr. Chairman, Members of the Committee, it's a 
great pleasure and honor to be here, and I would appreciate my 
written testimony being entered into the record.
    If I could, I'd just like to take a few minutes to share a 
couple of ideas with you. First, I'm here as a private citizen. 
I'm not in any way representing any of the industry folks 
whatsoever, but I do have 4 decades-plus of experience in the 
United States Navy, and much of that operating from an aviator 
in my distant past flying from aircraft carriers that were 
nuclear-powered for the last 30 or so years.
    And I think it would be good for us to recall some things 
that went on back in those early days. You mentioned President 
Eisenhower, Mr. Chairman. You've got a mugshot of the President 
over here on the display board. When I was a young second-
grader, I met him when he was running for office in 1952. I 
know that's why they call me the craggy Admiral. But I want to 
just give a perspective of those days.
    And in the early 1950s when you talked about atomic 
anything, it was weapons. And this increasing threat of atomic 
war we had already used these weapons-- remember the Russians 
had them, the Chinese had just acquired them--it was pervasive. 
Eisenhower had the vision and the drive to want to do something 
else, and he saw the potential of technology. The U.S. was 
developing options to actually use this what we call nuclear 
power, this atomic power, for other things, peaceful things 
because he knew the world needed help.
    And one of the things every place in the world needed, this 
country and others, was electric power, and the potential to 
have nuclear energy turn into power was very appealing but 
needed a lot of development work. The United States Navy at the 
same time was thinking seriously about this.
    So from my experience in the Navy I can tell you that the 
advent of nuclear power has given the U.S. Navy a phenomenal 
ability to operate in ways that it could only have dreamed 
about in the early days. It provides a tremendous opportunity 
to provide a deterrent, a strategic deterrent for this country 
in the form of our ballistic missile submarines that's just 
unequaled in the world. And our aircraft carriers, all of which 
are nuclear powered now, not only help in that deterrent but 
have a phenomenal striking capability should they be needed.
    So just a little sea story, in 1980, I was on the aircraft 
carrier USS Dwight D. Eisenhower. We were deployed to the 
Indian Ocean, and we, for many reasons, ended up remaining at 
sea for 152 straight days, 5 months operating continuously, 
this feat has never been approached in terms of records back to 
World War II, and in fact it's only been broken once by another 
former flagship of mine. USS Theodore Roosevelt actually went 
to 160 days. But it's a lot of time at sea.
    So tying things together, President Eisenhower came here 
and formally opened this plant. He had the vision. And since 
that time in the early days--by the way, did you know that the 
person that was in charge of design and construction of this 
facility here at Shippingport was the same person that was the 
father of the nuclear navy, Admiral Hyman Rickover. And 
Rickover was intentionally put in charge of this operation 
because he was the kind of guy that got stuff done. We could 
use him today I think to help us along.
    But since those days, the Navy and the commercial nuclear 
industry have been intertwined in innumerable ways. And in fact 
that's the crux of the problem that I see today. The decline of 
the commercial side is severely affecting the U.S. Navy, and 
it's affecting our national security. The network of 
infrastructure that supports both the commercial and Navy side 
are difficult to distinguish. The supply chain that enables the 
operation of these plants--by the way, there are only about 200 
nuclear reactors in our entire country. Half of those are on 
Navy ships and the other half, declining numbers, are in our 
commercial plants.
    As someone already mentioned, the people that enable this 
industry to keep going and the people that enable our Navy to 
operate are often one and the same. And if you took a poll of 
people that are working in the commercial industry, you'd find 
an awful lot of Navy people. But we get people in the Navy, 
interestingly enough, because when people are young, they look 
down the road and they say, hey, what am I going to do, you 
know? I'm in the Navy 20, 25 years, and then what? The Navy and 
commercial nuclear share the people.
    The situation today is not good. We are strategically 
ceding the initiative to--increasingly to Russia and China, as 
Congressman Lamb already mentioned. These two countries alone 
have under construction or in planning more than 200 nuclear 
power plants today. The United States, zero. The Russians have 
$130 billion of signed orders to build plants. We have not a 
penny, nothing. There's something wrong with this picture.
    So let's go back to Eisenhower's idea. He had a vision. He 
thought that he could promote peace and stability, and the 
objectives of that program that he started and announced in a 
speech in front of the U.N., was known as the Atoms for Peace 
initiative, had three cornerstone ideas. One was to prevent the 
spread of nuclear weapons. How did that happen? Because 
Eisenhower--and, by the way, there was a lot of staff 
disagreement, a tremendous amount of angst in Washington, you 
better not do this, oh, it's dangerous, you're going to spread 
this technology, really bad, but he prevailed. He wanted to 
limit the spread of nuclear weapons because when the countries 
agreed to take that technology, they also had agreed to non 
proliferate.
    Second thing, it enshrined the U.S. as the leader in--as 
Dr. Lyons already indicated, U.S. safety standards, U.S. 
procedures, U.S. technology in an agreed, regulated format that 
is certainly not the case with our adversaries in the world 
today.
    And the third thing is it enabled this country to develop 
relationships with other countries that are longstanding, so 
these nuclear plants are built to last 50 to 100 years. For the 
duration of these arrangements in other countries you need 
people working together, trusting one another, technology 
exchange. That's all disappearing now as we've just kind of 
walked away from this thing. So for these key reasons, I think 
that this country needs to really step back and do some serious 
thinking.
    It isn't just about local clean energy, which ought to be 
very important to everybody. Solar, wind, nuclear are not the 
same. The sun doesn't shine 24 hours a day. The wind doesn't 
blow. But the 95 percent or better availability which nuclear 
power delivers, and I think it's something we need to consider. 
We need to use our heads. We need a balance. And this balance 
at the domestic local level is really important, but in the 
strategic international level for national security, it's 
really important, and we need to get back in the program in my 
opinion.
    Thank you very much for the opportunity.
    Chairman Lamb. Thank you, Admiral.
    Adm. Fallon. I look forward to your questions.
    [The prepared statement of Adm. Fallon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    Chairman Lamb. Thank you very much.
    Ms. Taylor.

                  TESTIMONY OF TINA M. TAYLOR,

           SENIOR DIRECTOR, RESEARCH AND DEVELOPMENT,

                ELECTRIC POWER RESEARCH INSTITUTE

    Ms. Taylor. Good morning, Chairman Lamb and Members of the 
Subcommittee. I appreciate the opportunity to participate in 
today's hearing.
    EPRI (Electric Power Research Institute) conducts research 
relating to the generation delivery and use of electricity for 
the benefit of the public. An independent nonprofit 
organization, we bring together experts to help address 
challenges in electricity, including reliability, efficiency, 
affordability, health, safety, and the environment. EPRI sees a 
plausible future where deep carbon reductions will require 
continued focus on energy efficiency, cleaner energy, 
electrification, and advanced fuels. Nuclear power plays an 
important role to achieve carbon reductions while providing 
affordable energy and a strong GDP.
    As was mentioned, it's fitting that we're here next to the 
Shippingport station today, the first demonstration of large-
scale commercial power--nuclear power in the U.S. After 25 
years of operation, Shippingport has been decommissioned 
successfully and the land released for unrestricted use. 
Currently operating at the site are the two units at Beaver 
Valley that you toured this morning. While both of these units 
have received license extensions from the NRC, FirstEnergy has 
announced potential premature closure due to market challenges 
and, today, Beaver Valley's future remains uncertain.
    Nuclear plants have long been valued for their reliable 
operation and contribution to baseload generation, and now 
they're being reappraised as a foundation for sustained 
decarbonization, economic contributions, environmental 
footprint, and other societal benefits. The 98 operating 
reactors today provide nearly 20 percent of the electricity in 
the United States, and even with rapid deployment of wind and 
solar, nuclear plants still comprise about 60 percent of our 
carbon-free electricity.
    While a number of units in the U.S. are currently under 
financial stress, that picture can change dramatically if the 
U.S. places even a modest value on carbon reductions. The 
current nuclear fleet operates safely and has achieved very 
high reliability. The extended operation could provide an 
important foundation for the future of nuclear.
    Plants were initially licensed for 40 years from the NRC 
with the potential for extended license periods of 20 years. 
Currently, 90 of the operating reactors have received license 
extensions to operate out to 60 years. The focus now is on 
renewal of these licenses to allow operation out to 80 years. 
So far, three companies have applied to the NRC for these 
second license extensions, and other companies are evaluating 
this option. Based on extensive research, evaluation of 
inspection results, and development of aging management 
programs, we have found no technical barriers to safely and 
reliably extending the life of these plants out to 80 years and 
potentially beyond.
    New technologies and process improvements can also enable 
extended operations, providing improved economics while 
maintaining reliability and safety. Two examples of this are 
accident-tolerant fuel and plant modernization. Acceleration of 
these technologies can increase efficiencies, and EPRI is 
engaged with the Department of Energy and others to evaluate 
these options.
    The longer and more efficient operation of today's fleet 
provides a bridge to the next wave of nuclear technologies. 
This is important to provide additional time for development 
and deployment of new plant types and to help maintain the 
national nuclear expertise, as Admiral discussed, and the 
supply chain.
    SMRs (small modular reactors) are a likely near-term 
option. EPRI has worked with stakeholders to accelerate 
adoption of these technologies, leverage the improvements in 
design, and is demonstrating advanced manufacturing 
technologies. Increasing industry and government interest in 
advanced reactors has coincided with an unprecedented influx of 
private investment. We're working on advanced reactor owner-
operator requirements, developing methods for integrating 
safety assessments during the design phase, and performing 
economic modeling to explore where these plants may fit in the 
future.
    Opportunities for nuclear power increase substantially if 
decarbonization of transportation, building, and industrial 
sectors is seriously pursued via economy-wide electrification 
or through low-carbon energy carriers such as hydrogen.
    In conclusion, research and development (R&D) to optimize 
and extend the life of existing plants and demonstrations of 
advanced nuclear technologies offer utilities and other 
stakeholders several options for reliable, efficient carbon-
free energy.
    Thank you again, and I look forward to any questions you 
may have.
    [The prepared statement of Ms. Taylor follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you very much, Ms. Taylor.
    And, Dr. Apt.

                    TESTIMONY OF DR. JAY APT,

             PROFESSOR, CARNEGIE MELLON UNIVERSITY'S

               TEPPER SCHOOL OF BUSINESS, AND THE

           DEPARTMENT OF ENGINEERING AND PUBLIC POLICY

    Dr. Apt. Thanks very much, Chairman Lamb, other Members of 
the Committee, for giving me the opportunity to testify.
    I'm going to talk about something that we haven't talked 
about directly here, and that is non-carbon pollution. We're 
still killing prematurely 10,000 people a year from 
conventional pollutants from the power industry. We used to be 
killing 40,000 when I was growing up, and that's down, but the 
levels of pollution that we have from conventional power plants 
are still responsible for shortening your life expectancy by 6 
months. Federal and State policies have made a pretty big 
difference in making that a lot better. I think that we need to 
keep doing that at both the Federal and the State levels.
    Much of the discourse about low-pollution power has focused 
on renewables, but renewable and low pollution are not 
synonyms. As folks have said, nuclear provides about 19 percent 
of the low-pollution power in this country. Renewables provide 
about 17 percent.
    Renewable energy resources are what I've spent a long 
period of my research career studying. They are a key part of 
the Nation's future. If demand for electric power stays where 
it's been since 2007, all of the renewable sources taken 
together--wind, solar, hydroelectric, geothermal--would account 
for about 35 percent of U.S. electric generation by 2030. 
That's good, but if the nuclear plants close by 2030, then that 
effect would be that low-pollution generation would be right 
where we are now. If the nuclear plants stay open, we'd be at 
about 55 percent low-pollution power. If the nuclear plants 
close, we'd be back down to 35 percent, right where we are 
today.
    So I'd like to make the following points. As other folks 
have said, nuclear generation provides a bit over half of the 
low-pollution power that we have in the country. The remaining 
half is provided by hydroelectric, wind, solar, and geothermal. 
Wind and solar are growing, but if the USA's nuclear plants 
close, say, by 2030, then that effect would be no increase at 
all in our low-pollution power.
    States have a big role to play. The U.S. Supreme Court's 
decision on April 15 to allow low-pollution programs to go 
forward in Illinois and New York are a clear indication that 
States can treat low-pollution power the same way that they 
treat renewable power.
    Let me move to the Federal role. Spent fuel storage for 
civilian and military reactors is a Federal responsibility. 
Funds have been collected from each kilowatt hour produced by 
our Nation's nuclear power generators to pay for a long-term 
spent fuel solution. The Federal Government must shoulder its 
responsibility.
    The Department of Energy has a bunch of great national 
labs. They have excellent expertise in the materials science 
that's relevant to the continued operation of a fleet of 
nuclear generators. Continuing DOE research into the ways that 
nuclear fuel elements, for example, can become more tolerant of 
transient temperature excursions is one appropriate area for 
Federal action.
    Finally, if we're going to have safe and affordable 
advanced reactor designs that can be deployed at scale by 
midcentury, the United States is going to need to dramatically 
increase and refocus the budget of DOE's Office of Nuclear 
Energy toward advanced reactor development.
    The DOE's nuclear energy efforts have been scattered. They 
need to be centralized, and that may mean some difficult 
choices like the ones that we made in the base realignment and 
closings for our military services to refocus those 
appropriately. Part of that increased budget would be dedicated 
to building new infrastructure such as Fast Flux Test 
Facilities and other system testbeds. Even with a higher 
budget, surge funding may be needed to get reactor development 
and programs to commercialization. We're going to have to down-
select to two or three real designs and commercialize those.
    Thank you for the opportunity to testify on this important 
matter, and I'd be pleased to answer any questions when the 
time comes.
    [The prepared statement of Dr. Apt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Lamb. Thank you, Dr. Apt.
    OK. So just to explain for a second what we're going to do 
now, in case this wasn't already clear, this is a real 
legislative hearing the same way that we would conduct one on 
Capitol Hill in Washington, D.C. We just happened to bring it 
out here so that more folks could find out what we were 
thinking and we could learn from all of you. So when we hold 
these hearings in Washington, we will take testimony from the 
witnesses like we just did, and then the Members get the chance 
to ask questions. And it's all designed to lead to a bill that 
we might draft or a law that we could try to pass on this 
subject. We're trying to gather the information from the 
experts themselves. So that's what we'll start to do now.
    I will recognize myself as the Chairman of the for about 5 
minutes of questioning, and then we'll go through each Member 
for 5 minutes, and we might do that a couple times to make sure 
all the questions get out.
    So I will start on the end with Dr. Lyons. Dr. Lyons, we 
have here today four Members of Congress from this Committee, 
all of whom happen to be Democrats. That's really mainly driven 
by just the logistics of traveling here and who was available 
and that kind of thing. I know from working on the Committee 
that Democrats and Republicans are both very interested in 
nuclear power.
    And I thought you might be able to weigh in on that, as 
someone who's served in both President Bush's Administration 
and President Obama's Administration. And you actually quoted--
in case anyone didn't catch who you were talking about, you 
quoted Department of Energy Secretary Rick Perry, the former 
Republican Governor of Texas and Presidential candidate, who 
himself has made very supportive comments about nuclear energy.
    So I was wondering if you could just weigh in. In your 
experience, has this been a bipartisan issue?
    Dr. Lyons. Chairman Lamb, I would very much agree with you 
that this is a bipartisan issue. I think it's well-recognized 
in both houses and both parties that nuclear energy is a vital 
resource for the country. So, yes, I strongly agree with you.
    Chairman Lamb. Great. Thank you very much.
    Now, Admiral Fallon, I'd like to follow up on a few of the 
important things you discussed. One thing is you talked a lot 
about aircraft carriers. Just very quickly, can we think of the 
aircraft carriers--they're almost sort of like floating nuclear 
power plants in a way, right? I mean, they're--people think of 
nuclear energy and nuclear power as being very dangerous and 
risky, but actually, the Navy has been doing this for a really 
long time, carrying them all over the ocean for long periods of 
time like you talked about. And there's a whole culture of 
safety and expertise that's built up. Could you talk about that 
a little bit?
    Adm. Fallon. Sure, I'm happy to. So the Navy's got more 
than 6 decades of operating experience under often extreme 
conditions, and it's been able to do it safely and efficiently 
and effectively. And a lot of that's the legacy of the same 
Hyman Rickover that was the instigator of this plan here. He 
had a well-appreciated, fearsome reputation in the Navy when he 
served as Chief Torturer, but his standards were at the highest 
level, and he insisted on these standards being enforced. And 
the legacy of that is what pervades the U.S. nuclear industry 
to this day and in my opinion needs to be expanded out in the 
world rather than having Chernobyl and like situations 
perpetrated. So I think it's really important.
    Another comment about the floating powerplant. So today's 
aircraft carriers have two reactors on them. The original 
carrier Enterprise had eight. We learned a lot and moved the 
technology forward. But these plants operate for very long 
periods of time. The lifetime--the planned lifetime of our 
aircraft carriers since inception, the nuclear carriers, is 50 
years, so Enterprise served 53 years, and the expectation is 
that we're going to continue that.
    So these are actually very versatile vessels. They're 
large, and you can use them for many things. And the idea is we 
expect technology is going to change, the nature of conflict 
will change, but you have a platform that offers you immense, 
varied capabilities, and I think it's really terrific.
    Submarines, a little more focused, smaller, but they're our 
primary strategic deterrent lest anyone get an idea that they 
might do something stupid against this country, they're out 
there 24 hours a day under the seas, very difficult to find, 
and they're enabled to do that by nuclear power, which keeps 
them going. So----
    Chairman Lamb. And it's that culture of professionalism and 
safety in the Navy.
    Adm. Fallon. So basically----
    Chairman Lamb. Yes.
    Adm. Fallon [continuing]. The standards are very high, and 
there's not a lot of tolerance for error. And if you make a 
mistake, you're gone, but there's a very, very tightly 
interwoven series of events and activities and procedures in 
place to check and double check and make sure these things are 
done correctly and efficiently and safely.
    Chairman Lamb. Thank you. Do we happen to have any Navy 
veterans in the room with us today? I see a bunch of hands. 
Thank you for serving in the Navy. It's a shame you couldn't be 
in the Marine Corps, but the Navy is certainly a good option.
    But, no, when you walk through the power plant here, I was 
struck, both times I've been there, by how many Navy veterans 
you meet who got their start in the Navy's nuclear program. And 
then they knew that they could move back home at the end of 
their service when they were ready--many of them are from here 
originally--and continue to work in the same field, and that's 
one of the great benefits of this industry.
    So with that, I will turn now to my colleague from 
Michigan, Representative Haley Stevens, for 5 minutes of 
questions.
    Ms. Stevens. Thank you. Well, allow me to say what a 
delight it is to be in Beaver County and Shippingport in 
particular with my incredible colleague and our Chairman Conor 
Lamb. We've got to give him some credit for his leadership in 
bringing this field hearing together and allowing us to have 
this discussion.
    We often talk about the Science Committee as the Committee 
of the future and how we determine our future and come together 
to win it. And I represent communities not too different than 
this, this industrial Midwestern heartland. And the questions 
before us around our future, around a clean and sustainable 
economy that is creating jobs at scale for all of us, this is 
what Beaver County represents. And you have my commitment and 
partnership that we'll be damned if we let this plant close. 
And we will continue to work to share the success story about 
what the industrial might, what the workforce talent here 
represents and, frankly, how American leadership can be 
represented in new economies of scale because of what nuclear 
energy represents.
    My first question is for you, Dr. Lyons. In your testimony 
you described the Nation's nuclear power plants as a vital 
resource. And in my home State of Michigan, we generate nearly 
90 percent of our emissions-free electricity from nuclear 
power. These are companies, DTE Energy and consumers. We 
frankly are leaders in this space, and we're thrilled to be 
connected to all of you here in Beaver County because of that. 
This is also well over the national average of 55 percent.
    Can we just hone in here a little bit more specifically, 
though, because if plants like this--which, by the way, I had a 
blast on the tour and I can't wait to come back. But if plants 
like this were to close, what would the national energy mix 
look like? What would this do to our energy economy?
    Dr. Lyons. Thank you for the question, Representative 
Stevens. As I indicated in my testimony, I'm concerned that, as 
we continue to lose plants, we may, if you will, reach a cliff 
where we lose all of our nuclear power plants. The implications 
are tremendous. We would be losing over half of our clean 
energy in the country. There would be a dramatic reduction in 
the resilience and reliability of the grid. These are factors 
that are of immense importance to the American public. So I 
certainly agree with the thrust of your question. I use the 
word that they're a vital national resource. I absolutely 
believe that and appreciate your question.
    Ms. Stevens. And so could you just explain a little bit 
more, too, about how this would impact our greenhouse gas 
emissions?
    Dr. Lyons. There have been a number of test cases around 
the country and around the world where nuclear plants have 
closed. They've always been primarily replaced with fossil 
energy with their resulting emissions. It's very hard to argue 
any other way. The emissions will increase dramatically, and 
the concerns that Dr. Apt raised in his testimony will be 
intensified with the impact of greater fossil emissions.
    Ms. Stevens. And we talked a little bit about the 
perception of nuclear energy and kind of going into a rich 
history of which we celebrate and recognizing some of the 
present-day frustrations with how the public perceives nuclear 
energy. I almost want to save this for the second round, but 
I'll just say that one of my favorite thinkers of all time, Dr. 
Steven Pinker, in partnership with Dr. Josh Goldstein at the 
top of April published an opinion editorial piece titled, ``How 
Nuclear Energy Can Save the World,'' how we can do this from 
places like here in Beaver County.
    So, Dr. Apt, just quickly here for us, are there public 
health impacts both nationally and locally of domestic nuclear 
power plants that you could share or shed light on for us.
    Dr. Apt. Yes, they're all positive. The 20 percent or so of 
our power that is produced by nuclear plants is pollution-free. 
That's huge, right? We've got about one-third of our power 
produced by coal plants that have clear and present human 
health dangers. If we shifted from nuclear power to fossil 
fuel, that number of 10,000 premature deaths would go up by 
6,000. That's a lot, and so it's pretty clear to me that--and I 
teach in a business school, so I believe in looking at the 
economics of things. It's really less expensive to keep 
something going that you have than it is to build anything new.
    And I'm a big proponent of building new wind, new solar. 
That's great. And I'd love if we kept building wind--it's going 
up linearly--and if we keep building solar, it's going up 
exponentially. By the year 2030, if we do that and keep our 
nuclear plants, we'll go from one-third of our power pollution-
free to little over half pollution-free. That's great. If we 
lose our nuclear, we're in deep trouble.
    Ms. Stevens. Thank you, Mr. Chairman, and I yield back the 
remainder of my time.
    Chairman Lamb. Thank you very much, and now we'll turn to 
my colleague Bill Foster from the great State of Illinois, 
which has had a lot of success in supporting and maintaining 
its fleet of domestic nuclear reactors. And, Representative 
Foster, you're recognized for 5 minutes.
    Mr. Foster. Well, thank you Chairman Lamb, and thank you to 
our witnesses.
    You know, this--I'd also like to mention there were 
supposed to be two more of our colleagues here, the Chair of 
the Full Committee Eddie Bernice Johnson and a Representative 
from California. And when the thunderstorms came through, they 
just couldn't make their schedules work. But the three of us 
drove in the middle of the night last night because of the 
importance of this hearing.
    You know, we've gone through this, as you've mentioned, in 
Illinois where we've been struggling with the survival of our 
nuclear fleet. And we've resolved that favorably in terms of 
preserving the nuclear things. And to make that happen we had 
the Republican Governor and the Democratic legislature come 
together and recognize the importance of that, you know, to the 
environment and to the workforce of the State.
    And you certainly have a mirror-image situation here in the 
politics, but the logic is the same. And one of the reasons I 
know that I came is to show support for what I hope, you know, 
all of the elected officials of Pennsylvania will come through 
on this.
    I also wanted to echo something that Chairman Lamb said 
about Shippingport. You know, they're--I'm a Ph.D. physicist. I 
spent most of my career designing and building giant particle 
accelerators. And there are a handful of legendary places in 
the history of physics. One of them is Stagg Field on the 
campus of the University of Chicago where the first nuclear 
chain reaction took place in--during World War II. Another one 
is the Trinity Site in Alamogordo where the first nuclear 
weapon was tested. And a third place on the list is 
Shippingport where the power of the atom was shown that to me--
able to be turned for good at commercial scale with tremendous 
benefits for humanity and for the environment. And so you 
should be proud forever that that is going to be in the science 
textbooks forever what was accomplished here more than 50 years 
ago.
    And, as I said, we've been struggling in Illinois with 
preserving our nuclear fleet. And so I guess my question to 
actually all the Members of the Committee, what do you see is 
similar and different to the situation that Illinois faced when 
it decided that it had to take action and successfully took 
action to extend the life of its nuclear reactor fleet?
    Yes, Dr. Lyons?
    Dr. Lyons. If I may start, Representative Foster, certainly 
thank you for your question, and thank you for the leadership 
that your State has shown in this issue. I mentioned that I was 
Co-Chairman of the American Nuclear Society's Nuclear in the 
State's Special Committee. There were members from our 
committee who testified in Illinois at the time of the 
considerations for preserving your plants. To my knowledge, the 
situations are virtually identical. Maybe I'm missing a nuance, 
but I see the situations between Pennsylvania today and where 
Illinois was a few years ago as virtually the same. Maybe I'm 
missing a nuance, but I don't see it.
    Mr. Foster. OK. And any other comments? Yes.
    Ms. Taylor. Yes, I'll comment to bring in a point that 
hasn't really been discussed here, which is what the plants are 
doing. So at the same time as there's challenges from the 
market and maybe a changing price that can be obtained for 
electricity, another side of that equation is what it costs to 
generate that electricity. And the plants that operate in 
Illinois and in Pennsylvania have been working with the 
industry across the U.S. to look for opportunities to reduce 
the cost of producing electricity. There was an industrywide 
effort over the last several years called Delivering the 
Nuclear Promise aimed at that, and EPRI has been engaged in 
that from the perspective of where technology can be applied to 
reduce those costs. So the staff at the plants is committed to 
finding a way to make it sustainable as well.
    Mr. Foster. I guess I'd like to--also to touch on the 
economics. You know, it seems like the big dog in here is 
competition from low-priced natural gas, and that's really what 
has made things tough certainly in Illinois and I suspect here 
as well. And there is a--there are serious questions of whether 
we appropriately price the societal cost of methane, 
particularly fugitive methane emissions, that if you actually 
appropriately looked at what Dr. Apt mentioned, the health 
consequences of polluting power of various kinds, as well as 
the ecological damage from fugitive methane emissions, and we 
put a price not only on carbon but on methane and other 
pollution sources, that the economics would be pretty much 
turned on its head and nuclear would look very different in 
that economic--and, Dr. Apt, do you want to----
    Dr. Apt. Sure. Economists like to call these things 
unpriced externalities, their fancy word for it. But it 
basically means if you're not paying the full costs of 
something, then it's not priced appropriately. And for coal-
fired power plants, for pollutants such as sulfur dioxide, 
particulate matter, nitrous oxide, which applies to both coal 
and gas plants, we had a great Republican idea in 1990, the 
Clean Air Act amendments, of capping those pollutants and 
letting companies trade among them under that cap. That 
resulted in a great market price for those pollutants.
    If we properly priced the fugitive methane emissions, which 
of course not only are very potent greenhouse gases, 30 times 
more potent than CO<INF>2</INF> pound for pound, but also cause 
local here-and-now ecological damages, then an economist would 
pat us on the back and say you've done the right thing.
    Mr. Foster. Well, thank you. And I guess my time is up, so 
I'll yield back the balance.
    Chairman Lamb. Admiral, if you want to address that last 
point, go right ahead.
    Adm. Fallon. If I could just pile on a little bit here, 
from my view, the challenge here is that the electric companies 
I don't think properly value nuclear energy. And the reality is 
I believe the same in Illinois, it's the same in Pennsylvania, 
in my original home State of New Jersey which just enacted 
legislation to help the power plants in that State, and that is 
that people see what's close in front of them, and they see the 
availability of abundant quantities of gas and it's very 
inexpensive compared to other sources. That is why it is used 
so much.
    But the big picture here is that the baseload availability 
of nuclear-generated power, not subject to the time of day--
solar--or the variances of the wind, but it's steady and it's 
available 24 hours a day, it's not polluting, it gives you 
phenomenal resilience. So in the wintertime in these northern 
States I think you may remember that when the temperature 
plunges, electricity demand goes skyrocketing, and the folks 
are scurrying around looking for sources of energy. And they're 
not going to get it the way it's available in the nuclear way. 
You've got to go find a fuel. These nuclear plants have years 
of fuel onsite. They don't have to truck stuff in or pipe it 
in. It's there and available.
    So I think the real issue in each of the States is 
leadership. The leaders have to see beyond the near-term 
things, look at the long-term good and the common good for all 
the people and take appropriate action. So I think it's the 
same in every one of our States.
    Chairman Lamb. Thank you, Admiral.
    Now, I will recognize Representative Sean Casten also from 
Illinois. And I should mention that Representative Casten, 
Representative Stevens, and myself are all in our very first 
full term in Congress, so we are focusing on this issue early 
and hope to stay with it for a very long time. And, 
Representative Casten, you're recognized for 5 minutes.
    Mr. Casten. Thank you, Chairman Lamb. In fairness, as a 
redshirt freshman, the rest of us are true freshmen.
    I really want to thank you for pulling this hearing 
together. I want to thank all the witnesses. Thank you for your 
leadership. I--I'm a 20-year energy executive consultant, spent 
16 years as the CEO of clean energy companies. And I can say 
with a high degree of certainty that we face two existential 
threats as a species. One of them is global warming and the 
other one is Russian nukes. And this panel could not be more 
important because it touches on both of those. And if we don't 
figure out how to deal with those, we're not going to leave the 
kind of planet for our kids that our parents left for us. So 
thank you all for showing up and for dedicating not just your 
day but your careers to those issues.
    I want to focus a little bit away from the operation of 
these plants to how we build more of them because once you--if 
you recognize that those are the two big threats we face, the 
question is, first, how do we keep the assets running, and then 
second, how do we build more? Because the fact that we're 
hitting all these at the end of the life to some degree 
reflects the fact that we've been unable to build them to any 
meaningful degree over the last 4 decades.
    And I want to start, because I'm a chemical engineer by 
training, with the energy-efficiency end of the cycle because 
I--it's where my brain naturally goes. And, Dr. Lyons, if you 
could help me out, of the total energy that comes into the fuel 
in a nuclear power plant, when we take it out afterwards, when 
we remove the campaign, what percent of the total recoverable 
energy in that nuclear fuel have we used to make electric 
power?
    Dr. Lyons. It's an extremely small number on the order of 1 
or 2 percent that has been converted to electric power. But i 
want to be sure I am answering your question----
    Mr. Casten. Yes. Yes.
    Dr. Lyons. So you're asking of the potential energy that 
could be available from the fissionable material coming in 
relative to the electrical output----
    Mr. Casten. Yes.
    Dr. Lyons [continuing]. It is only in the range of a couple 
of percent.
    Mr. Casten. So could you then compare what percent of the 
energy we're recovering in a plant like the Beaver Valley plant 
we just toured to the percent of sort of the best-in-class 
facilities around the world? What's the--how does that 1 to 2 
percent change?
    Dr. Lyons. For all operating nuclear power plants with the 
exception of a couple of fast reactors in Russia, the number 
would be about the same. All the remaining plants are--with a 
few exceptions--plants doing roughly the number I described. 
Now, there are improvements coming in the future that would 
dramatically change that number, but for the current generation 
of light water plants, that would be the correct statement.
    Mr. Casten. OK. So for the new technologies coming down the 
path, what are we talking about, that potential increase?
    Dr. Lyons. You could look at it in two different ways. A 
plant like Beaver Valley is about 30 to 35 percent efficient in 
converting heat energy to electricity. Some of the advanced 
plants under consideration will change that 30 to 35 percent up 
to over 50 percent because they operate at much higher 
temperatures. In addition, there are other classes of reactors 
that can essentially reuse the spent fuel. Right now, we use a 
so-called open cycle, a once-through cycle where fuel is used 
once and, for right now, it only goes into pools and dry casks 
at the reactor because we do not have a repository; I pray we 
get our act together on waste management and have that 
repository. But there are reactor designs that have 
demonstrated this in this country, the so-called fast reactors, 
that can reuse that used fuel. And then you're up to 
extractions that are approaching 100 percent, certainly above 
90.
    Mr. Casten. OK. So if you could help me put this in 
context, we use about 4 trillion kilowatt hours a year of 
electricity in the country, you know, somewhere between, you 
know, a little less than 1 trillion come from nuclear if I'm 
doing my math right. If we could recover the energy in those 
spent fuel, and get down to what is theoretically possible, 
what percent of U.S. electricity could we generate from nuclear 
fuel?
    Dr. Lyons. Well, in principle, you could go to 100 percent, 
sir, but I would come back to my argument on diversity. I don't 
think you want to have 100 percent of any energy source.
    Mr. Casten. Understood. My point is simply that if I'm 
following the math right----
    Dr. Lyons. Your math is correct.
    Mr. Casten [continuing]. We have enough energy that is 
sitting--that is currently, you know, effectively going to 
waste as we reject this heat into the atmosphere that is zero 
carbon, that is clean, that is theoretically base-loaded, and 
if--and I don't want to put words in your mouth, but it sounds 
to me like if we can figure out how to deploy the capital, we 
have largely solved one of the major existential challenges 
that we face as a country.
    Dr. Lyons. And there are certainly companies in the United 
States today--there are estimated to be over 50 companies 
exploring advanced reactors in this country. A number of them 
are focused on reactors of the type about which you're asking. 
One of the most public or well-known is Bill Gates and 
TerraPower, and that is exactly the focus of TerraPower. And I 
believe Mr. Gates has used some of your words on the 
existential threat, which he is trying to address.
    Mr. Casten. Well, I am out of my time, but I want to follow 
up on the economics of this on the next one, but I will yield 
back my negative time.
    Chairman Lamb. Thank you. Thank you very much. And we'll 
start a second round.
    I'm going to start at the other end here with Dr. Apt. And 
actually, Dr. Apt, I wanted to ask you something from your 
personal experience. As I mentioned, you're a former astronaut. 
You did, I believe, four Space Shuttle missions, including some 
missions with allied countries like Japan and Russia. So this 
isn't so much about nuclear energy specifically but more about 
the importance of how our government makes a commitment to 
science and scientific research and scientific leadership in 
the world.
    From your experience coming up through NASA, seeing what 
it's like to train to that degree to do something incredibly 
risky and dangerous like go into space and to work with other 
countries to do it, do you see a parallel in why we have to 
maintain our nuclear fleet, our nuclear science, and especially 
the people who make up that fleet in order to have leadership 
in the world and be able to continue that culture that we've 
built all those years?
    Dr. Apt. Chairman Lamb, that's a superb observation. When 
we went to the moon, you know, 50 years ago, that was a 
bipartisan commitment that stretched over a decade from the 
time that we were shocked in October 1957 when the Russians 
launched Sputnik 1 to when we landed on the moon on July 20, 
1969. Those kind of decade-long commitments are critical to 
doing science and engineering projects of all sorts.
    One of the things that we don't have is a commitment where 
a vendor can go out and say, OK, I'm going to build a big new 
press that can make the top of the nuclear reactor vessel. We 
don't have that in this country anymore because there hasn't 
been the demand for it.
    Chairman Lamb. Right.
    Dr. Apt. And there hasn't been the demand for it because we 
don't have consistent decade-long commitments. And so you're 
exactly right. That kind of stuff would help in lots of things. 
Infrastructure of all sorts requires the length of commitment 
that President Eisenhower did for the interstate highway 
system, that President Kennedy did for the moon project. Those 
sorts of things are absolutely critical.
    Chairman Lamb. And that type of commitment would actually 
allow us to build a lot more of this equipment and material 
here in the United States instead of buying it overseas like we 
have to do a lot of times now.
    Dr. Apt. Yes. And part of the reason why we had trouble 
building the two nuclear power plants that are still under 
construction, Plant Vogtle in the south, is that we didn't know 
how to build big things here very well. The same design, the 
Westinghouse AP1000, got built in China with our plans much 
quicker because they still build large stuff. If we have 
infrastructure commitments, then companies will naturally start 
building the big forges. We'll start understanding how to do 
big projects again. And we won't have the time and cost 
overruns that we see when we do this once every two 
generations.
    Chairman Lamb. That's exactly right. And, Admiral Fallon, I 
was hoping you could touch on that, too. You mentioned a little 
bit about the importance for our influence in the world, these 
overseas opportunities to build plants in the way that Russia 
is doing it now. And if I'm correct, Russia not only builds 
them but they'll also operate them for many of these countries, 
so it's actually Russian scientists and businesses that are 
benefiting from all of this. You've spent a lot of your career 
overseas working with foreign governments, working with foreign 
business leaders. Can you talk about why it's important for us 
to be in that game and building those plants?
    Adm. Fallon. Sure. It's even more than that, Mr. Chairman. 
So the Russians and the Chinese construct and they own and they 
operate these plants. And they're paid for typically with long-
term loans at interesting interest rates. But effectively what 
happens is the providing country dominates these--particularly 
the places in Africa and Asia that can least afford this, and 
they've got them very beholden to them. And so the people in 
these countries want electric power like everybody does, and 
you know what happens here, turn off the power and what 
happens? We fall apart. So in these countries they're very 
eager to get it, but it's come at a tremendous price. And the 
influence that Russia and China are beginning to have in these 
places is overwhelming, and we're just becoming irrelevant. And 
it's very important I believe for U.S. leadership to be able to 
have something behind the talk, to be able to stand up and do 
it. And so Eisenhower's initiative to use atomic power in those 
days, nuclear power for peaceful purposes to provide a need 
that everybody in the world wanted I think was terrific, and we 
just kind of lost that now.
    And if I could for a minute, I want to make this--this is 
very personal for me, but my last job was the Commander of all 
U.S. forces in the Middle East during the wars in Iraq and 
Afghanistan. And as an incentive to get us to invest in nuclear 
research and development, to give us some opportunities to 
change what is still the primary fuel source in the world 
today, oil. I would tell you that my estimation is about half 
of our casualties killed and wounded in Iraq and Afghanistan 
were directly related to our need to truck fuel and water in to 
operate our facilities in these countries, a staggering number 
of casualties. These are our people, our soldiers, marines, 
sailors, and airmen. This is absolutely unnecessary in my 
opinion. We can do better.
    And this is what I think the primary--a significant 
motivation ought to be at a national scale in this country to 
motivate the kind of research and development that can give us 
alternatives. And I'm convinced that we can do it. We've done 
it before. We have a lot more knowledge today and computing 
power we never had before. We need to put it to work, but it's 
going to take leadership, and hopefully--I thank you for this 
hearing and for going through the travails of travel to get 
here to put this on, but it's very, very important to our 
country.
    Chairman Lamb. Thank you. Go ahead, Dr. Lyons.
    Dr. Lyons. If I could add one point to what the Admiral 
just said, when the Russians talk about build, own, and 
operate, for many countries they are also offering to provide 
all of the fresh fuel and they will take back all of the used 
fuel. It is absolutely a complete package. When they offer this 
to a country like Bangladesh, they're not offering it because 
Bangladesh has a bunch of nuclear experts with whom they wish 
to work. They're offering it with the idea that they are 
controlling the energy supply of Bangladesh for the next 
century.
    Chairman Lamb. Thank you. And with that, I recognize 
Representative Stevens for another round of questions.
    Ms. Stevens. Great. Well, it's evident that we are built 
for moments like these, and while I certainly don't like to 
hear the examples of being--squirrels chasing their own tail in 
terms of why we're in the place that we are in, if you reverse 
it on its head and look at it, we are in a position where we 
can seize hold of why we are here. And so the questions I would 
like to ask and maybe each of you could kind of chime in is why 
are we here as it pertains to nuclear energy and the threats to 
the cuts and the plant closures? How do we maybe in an 
existential way seek to solve it? Thinking big is great. And 
then if you could also touch on ways in which your current 
portfolio of work is helping to solve this or some examples 
that you might have. That would be great.
    Dr. Apt. Let me start by picking up on your word portfolio. 
Anybody who looks at fluctuations in any market, stock markets 
or anything else, knows that you have to put your bets on a lot 
of different numbers on the roulette wheel because you don't 
know what's going to come up. We're that way with gas. You're 
at ground zero of the shale gas revolution in this part of the 
world, and gas is produced here in enough quantities that it's 
driven the price way down. That's great. But I'm an old guy. 
Look at those gray hairs. And I remember that 10, 12 years ago 
the price of gas went up from $3 to $12 in a matter of months. 
Those things happen with commodities.
    And one way to look at the nuclear fleet is a hedge against 
those kind of price spikes. Now, like in any hedge, there's a 
risk premium that you have to pay. When Southwest Airlines 
hedged their fuel costs a decade ago for their jetliners and 
thereby avoided the price spikes that almost killed other 
airlines, they had to pay a small risk premium for that. I 
think that's a robust lesson out of economics that we ought to 
learn in our power system.
    Ms. Stevens. Diversified industries.
    Ms. Taylor. So I would say one of the reasons we're here 
now is that the current options to build a new nuclear plant 
are very large, long-term, expensive plants. We only really 
have, you know, one type of option right now. And a decision to 
invest that kind of money to build a plant is--requires looking 
ahead--80-year future, what is the value of that going to be in 
80 years? So that has made it very difficult. There was the 
birth of the nuclear renaissance where we were going to build a 
lot of plants. In fact, I think 14 plants have received 
licenses or sites have received licenses from the NRC. And then 
the economy changed and things slowed down, electric growth 
slowed down. So I see that as a current challenge today to any 
company right now to invest, you know, essentially their full 
market capitalization in a large project with an uncertain 
future is very difficult.
    But the good news is that all of the work going on in the 
SMR space and the advance reactor space is really aimed at 
countering kind of the economy of scale that led to the 
attractiveness of these large plants with looking at the 
benefits of small where you can build things in more 
incremental stages and capture the value. So I think--so the 
way we work ourselves through this and out of this is to 
accelerate the development of the next wave of technologies. 
There are a ton of opportunities for that. There are some 
things that are already working very well in how the government 
is helping to accelerate the efforts of private investors who 
are developing some of these. And I think the example of the 
NuScale progress and the potential UAMPS (Utah Associated 
Municipal Power Systems) plant at the Idaho National Lab is a 
great example of things that can be done together with industry 
and government to accelerate the future.
    Ms. Stevens. Well, and one thing I read is that China and 
Korea are building nuclear power plants at one-sixth of the 
cost that it takes. And I don't know if that has to do with 
supply chain or, you know----
    Ms. Taylor. Yes.
    Ms. Stevens [continuing]. And if that leads to you----
    Ms. Taylor. I would--before I turn it over, I would just 
say I think part of that is what was already mentioned, that 
they're in the habit of very--building very large projects, so 
they've got the skills, capability, and workforce to do that.
    Adm. Fallon. To answer that specific question, the reason 
that they claim to build these at a fraction of the cost is 
because they're state-subsidized, so the national investment by 
the Chinese government, the Russian government, they're huge. 
And so that makes it extremely difficult for our companies 
right now to compete on a--it's not a level playing field, not 
even close, so that's probably the biggest reason why you see 
this tremendous growth from these two entities.
    Dr. Lyons. Maybe just to follow a little bit on what Ms. 
Taylor said, I strongly concur that the small modular reactors, 
the SMRs, are very likely to be the most attractive option for 
construction in the near term in this country. The very large 
plants, the gigawatt-plus plants like are being built in the 
Vogtle plant in Georgia today, there are few places in the 
country today, given our well-developed grid, where you need 
that much power all at once. But there are places where the 
small modular reactors will make a lot more sense, and you 
mentioned already the construction that is planned in Idaho.
    But if you look abroad, the situation may be very, very 
different. There are many, many places around the world where 
gigawatt-plus plants make a lot of sense and probably a lot of 
them, so we need to be looking at opportunities abroad for 
designs like our AP1000, like our ESBWR (Economic Simplified 
Boiling Water Reactor) from GE to move ahead in the markets for 
gigawatt plants. And then there's any number of countries where 
their grids are just starting where they couldn't possibly take 
a gigawatt plant. Their whole grid isn't a gigawatt. But they 
could take a small modular reactor.
    And so I see globally a tremendous market and opportunity 
for the United States in both large and small. In the United 
States I think most of our options in the future will be the 
SMRs that Ms. Taylor suggested.
    Ms. Stevens. Well, it's an American leadership moment, and 
I just--I continue to hold onto something that the Admiral 
said, which is that, you know, as it compares to the global 
indicators, we almost feel inferior.
    But as I sit up here with your Congressman, by the way, Mr. 
Conor Lamb, you have a leader in him. And again, I would just 
like to recognize his efforts. I don't forget the minute he 
came up to me on the--or the moment he came out to me on the 
House floor and passed me an invitation to come here today. And 
it's particularly special because Beaver County is on my way 
home. Normally, I fly, but it's the midway point, so I'm just 4 
hours west of you all here, about 280 miles, and I think we'll 
be able to continue this dialog and continue to seize the 
opportunity and moment before us.
    I yield back my time, Mr. Chairman.
    Chairman Lamb. All right, thank you. Representative Foster.
    Mr. Foster. Yes, I guess I would like to just spend a 
moment talking about the nuclear Navy because it's sort of 
unique. You know, our--the deterrent, the nuclear deterrent of 
our country relies on three legs, the intercontinental 
ballistic missiles, the strategic air bombing, and also our 
nuclear submarines that go off in the deep ocean and hide where 
they cannot be detected and they--because they cannot be 
detected, they cannot be destroyed.
    When the President is faced with a decision whether to 
launch weapons, the horrible situation that he or she could be 
put in is having to decide whether to push our button in 
response to an enemy attack that--of uncertain nature.
    And so in the case of our land-based systems and the 
strategic bombing, you know, we face the possibility that our 
forces could be wiped out because the enemy knows where they 
are and how to get them. That is not the case of nuclear 
submarines, and it's unique. It means that we can hold back and 
we can decide when to counterpunch at a time of our choosing 
and not be panicked into a nuclear war that will destroy the 
world. So they're what's referred to as stabilizing.
    And the nuclear submarine force is something--if you had to 
choose between these three legs, there's no question the one 
you would keep would be the nuclear submarines. And so it's for 
that reason that I've been proud to have visited the facility 
in West Virginia where the nuclear fuel is made and the places 
down in naval yards very near the Capitol where a lot of the 
very highly classified and brilliant design work is done on 
those.
    And so if we lose the commercial nuclear business in this 
country, we will--it will make our submarines much more 
expensive, but we will still have to build them. And so it's a 
false economy to think that, oh, we can just, you know, let the 
Koreans, that the Japanese, you know, let the Chinese and 
Russians do the commercial start stuff and we'll just continue 
building our subs. Because of the shared workforce that's 
represented by many of you in this room, it's a--I think it's 
essential that we preserve for national security reasons alone 
a strong commercial nuclear capability.
    And if you have anything to add to that, I'd be----
    Adm. Fallon. Thank you. You've said it all, that the 
submarines are the most survivable aspect of our nuclear 
deterrent. And again, the idea is that they--because they're 
going to be very, very difficult to find and attack, that this 
survivability is our deterrent against somebody that might 
think that they could neutralize us, take out our strategic 
capability, and thereby blackmail us into whatever they want to 
do. So it's really important.
    I believe that the options in the supply chain are not only 
shrinking dramatically but in some cases I've been told we're 
down to one supplier in this country to provide absolutely 
critical components for the Navy nuclear power program, and the 
reason is because there's just not an opportunity to diversify 
and, you know, do things economically. So I couldn't agree 
more. Thank you, Congressman.
    Mr. Foster. Well, thank you. And also one of the things 
that I know all of us are going to be very active on in the 
Science Committee is looking at advanced nuclear designs 
because of, you know, the real promise that is there, that's 
recognized both commercially and in the Department of Energy.
    For example, just the spent fuel that's sitting there in 
storage in the pond in the dry cask storage there is enough to 
operate this plant in principle for more than 100 years just 
with the fuel that is sitting there in the ground today. And 
that opportunity is one that we have to understand how we're 
going to take advantage of it where it is frankly a disgrace of 
Congress that we haven't dealt with the nuclear waste problem. 
You know, we have this thing called Yucca Mountain and a 
promise that was given that we would accept nuclear waste in 
the facility, and for various political reasons, that--you 
know, we have not followed through on that. One of the ways out 
of that politically is with these advanced designs, the designs 
that can burn the nuclear energy that's still stored in this 
spent fuel.
    And I was wondering if any of you have--do you have a 
favorite design, Ms. Taylor, or just an idea for a way forward 
and making sure that we actually follow through on that 
promise?
    Ms. Taylor. Well, I don't have a favorite design, but I'm 
absolutely impressed by the group of young people that are 
working on all sorts of designs, several of which are--have 
this concept of somehow burning the current used fuel. And 
working through the technology part of that is a challenge, but 
the uncertainty about how one would go about doing that, if 
that would ever be legal, if the framework would be in place to 
use that fuel is a large uncertainty to anybody looking to 
invest in those technologies today. So I think that's an 
important aspect.
    Mr. Foster. From a technological point of view, when one of 
those is demonstrated, is there any reason that it could not be 
sited at an existing location such as here?
    Ms. Taylor. I don't think there's any technical reason why 
it couldn't be.
    Mr. Foster. Yes, Dr. Lyons?
    Dr. Lyons. May I just add, sir, there are certainly no 
technical obstacles to the vision that you described. In my 
mind, the decision that I hope this country will eventually 
make will be between an open cycle where we are now and a 
closed cycle, as you just described, where we would reprocess 
and reuse the fuel. My guess is that this choice will be done 
on an economic basis but I don't know how to answer the 
economic question for either an open or closed cycle. We have 
yet to show that we could open a repository in this country, so 
I don't have the foggiest idea what that costs.
    We also have not done a complete demonstration in order to 
understand the costs of a closed cycle. The country is 
committed by law now to use the open cycle and show we can open 
a repository. I hope we can. I'm not sure it will be Yucca but 
maybe. But in any case, we're on this path of an open cycle. I 
would like very much to see us also explore the path of work to 
understand the economics be of a closed cycle so that the 
country can make an intelligent decision sometime in the future 
between the open or closed cycle. There are many potential 
advantages to going with a closed cycle, but the economics are 
uncertain in both cases.
    Mr. Foster. Yes. And I agree, but I think it's important 
that economic calculation consider both the national security 
aspects and the necessity of keeping a strong nuclear 
enterprise going in this country, as well as the secondary 
environmental damage when you start providing that energy with 
fossil fuels.
    Dr. Apt. If I may, let me just say that it's a privilege to 
be on a panel with the former NRC Commissioner and one of our 
graduates, Bill Magwood was also on the NRC.
    Dr. Lyons. Yes, a very good friend.
    Dr. Apt. But I have to say Nuclear Regulatory Commission is 
stretched so thin that their ability to do the kind of 
oversight of these clean-sheet-of-paper designs is in question. 
And that's one of the reasons why TerraPower that we talked 
about before is looking at licensing abroad. I don't want to 
see that. What I do want to see is additional resources in the 
NRC to be able to license and test those designs in the United 
States of America.
    Chairman Lamb. Thank you. I will now recognize 
Representative Casten.
    Mr. Casten. Thank you, Chairman.
    As promised, I want to follow up on the--some of the 
economic barriers to capital deployment in this space, but I 
want to start by singing the praises of economics because the--
I think a very compelling case can be made that the single-most 
important thing we did for CO<INF>2</INF> emissions in my 
professional lifetime was the 1992 Energy Policy Act. The--
actually creating an incentive where people preferentially 
operated their lowest-cost sources has been a boon to the 
nuclear industry. You know, the fleet has gone from 60 percent 
to 90 percent capacity factor. I think the FirstEnergy folks 
told me this morning that you're only 93 percent capacity 
factor at the upper end of that tier. And, you know, you're 
doing that because you've got good people, you're doing that 
because you're motivated by the right things, and you're also 
doing it because you're greedy because if you can make money by 
operating more hours, you operate more hours, and that's a good 
thing.
    Now, having said that, the pernicious side effect of that 
is that over the course of deregulation, there's a saying 
that's crept into the energy world that everybody wants to be 
the third owner of a power plant but nobody wants to be the 
first owner.
    And my question for you, Dr. Apt, is, you know, at a broad 
level what have we done wrong, but more specifically, is there 
a market tool that we can use to actually encourage the 
deployment of new capital in the energy sector or do we have to 
go back and look at--you know, we knew how to build stuff in 
the old regulated model. We didn't know how to make the right 
dispatch decisions all the time, but capacity markets, are they 
working, can we tweak them to work? What are your thoughts 
about how we might learn from the last 20 years of history to 
better deploy capital in this space?
    Dr. Apt. So the technology changes that have happened in 
the electric power industry have been largely stimulated by two 
things. One has been command-and-control regulation for 
conventional pollutants. If you look at the level of patents 
for things like sulfur dioxide and particulate matter control, 
you know, people have done many patents until the 1970 Clean 
Air Act and especially the 1990 Clean Air Act amendments came 
in, and then the patents went way up. So one of the things that 
we do right is to have Federal and State regulations that 
stimulate people to go in their lab and figure out a new piece 
of technology.
    The second, as you mentioned, is competition. That's why we 
brought in natural gas generators. Our companies have built all 
coal all the time until restructuring happened and then people 
said, oh, well, we can build a natural gas plan for one-fifth 
of the cost in 2 years instead of 8 years.
    And the other thing is to have stimulation of low-pollution 
sources explicitly, renewable portfolio standards, for example, 
and the kind of low-pollution standards that we have in 
Illinois and New York and perhaps here in Pennsylvania.
    Economists can't argue about the nitpicky details of 
whether a price on carbon or an all-comers for all-low-
pollution standards are best or whether you should have tiers 
as in Pennsylvania for the advanced energy portfolio standard 
where one tier is renewables and another tier might be nuclear. 
The difference between doing any of those and doing nothing at 
all is immense.
    Mr. Casten. So let me ask you because you're very humble 
about your background, but I'm--you know, I know you know that 
I know that you've been really one of the leading thinkers on 
figuring out how to get rid of some of these inefficiencies in 
the system. And so if we presume for a moment that the four of 
us on this side of the dais have the authority to deputize you 
as king of the energy system for a day or two, if we get to 
pick three things that if you make those changes we will cause 
a greater deployment of capital and clean energy technology 
using market tools, what are your--where do you see the low-
hanging fruit? What's your top three?
    Dr. Apt. Clearly, you have to first re-examine your 
question of whether they should all be market tools. The issue 
with market tools is they lead you to short-term answers. And 
so you have the dash to gas as it was called. Everybody built 
gas plants around the time when gas first began available in 
the energy information age and see if the same prices would 
stay low, and that's what drove around the year 1999 and 2000, 
2001 60 gigawatts per year of gas was built, had the absolutely 
predictable effect of driving natural gas prices up by a factor 
of four. So markets are inherently short-term.
    One of the things that we can do is to say, well, where are 
market tools appropriate and where should you have things like 
a low-pollution standard or, if you'd like, a renewable 
portfolio standard? Again, we're not running out of fossil 
fuels, so renewability in itself is not our goal. We're running 
out of atmosphere in which to put the combustion products of 
fossil fuels. So low-pollution should be the goal.
    And you can have regulations of various types that put in 
low-pollution. The absolute market solution would be a price on 
pollutants, including greenhouse gases. That's not likely to 
happen, and it's cumbersome when it does happen.
    Waxman-Markey I testified about some years ago, a decade 
ago in front of a number of committees, and it got pretty 
complex, more complex than I expected it to get. I think that a 
kind of portfolio of command-and-control regulation for 
pollutants, opening up a window for low-pollution sources, 
including renewables and nuclear, and then keeping an idea that 
we ought to have a portfolio are the three things that I would 
do.
    Mr. Casten. Thank you, and I yield back.
    Chairman Lamb. OK. And we'll do one final round just kind 
of for parting shots, make sure everyone gets a chance to 
finish off here. I don't think I'm going to take the full 5 
minutes, but I just wanted to flesh out the jobs issue a little 
bit more because it's been referred to by several of our 
witnesses.
    We've had the chance to talk about the folks that work here 
at Beaver Valley that work for FirstEnergy that are represented 
by their locals here today, many of them veterans, extremely 
important for us to protect those jobs. There is also a wider 
jobs issue for us here Pennsylvania, and I have with me here a 
report by the Energy Futures Initiative that looks at the 
companies in the nuclear supply chain and where they're located 
and how many of them there are. It's been referred to a few 
times.
    And some of these companies sell equipment both to nuclear 
power stations like Beaver Valley and to the U.S. Navy, and 
that it's very important for the future of the Navy's nuclear 
program that these companies survive because they need to buy 
their stuff from them. But if they're not able to also sell to 
Beaver Valley because Beaver Valley closes down, then some of 
those companies might close down, and then all of a sudden the 
Navy is stuck when it comes to buying what they need.
    And it turns out that Pennsylvania is actually one of the 
leaders in this area, so if you look at the States that have 
the highest number of nuclear supply chain companies, we're 
actually No. 1. We have 71 nuclear supply chain companies here 
in the State of Pennsylvania. They offer about 655 different 
types of products, really important things when it comes to 
valves, boilers, storage containers, pumps, concrete. I mean, 
they're really the things that make up the power station that 
we know.
    And we are again a huge leader when it comes to having 
companies that do business both with Beaver Valley and with the 
U.S. Navy. There are really big companies like Bechtel and 
Westinghouse and General Electric are some of the examples that 
you'd probably be familiar with. But that actually goes all the 
way down the line to smaller companies, too.
    And so I wanted to highlight that because that's one of the 
things that's at stake. If we're trying to support our national 
security and make sure that the Navy can be a leader in nuclear 
going forward, they need these companies to survive just like 
our communities need the companies to survive, too, because 
people work there.
    Admiral Fallon, I think you're responsible--or you're 
pretty familiar with this issue from your time in the Navy but 
also some of the work you've done on the outside. You know 
about the Energy Futures Initiative and this report. Is that a 
fair description that I've just given of the issue as it faces 
the Navy?
    Adm. Fallon. Sure. There are dozens and dozens if not 
hundreds of companies all over this great Nation of ours that 
provide bit-and-piece support for the big names, so 
Westinghouse, Bechtel, whatever the--there are untold bits and 
pieces that are essential for the equipment to operate 
correctly. And those are often overlooked. You know, you just--
people don't pay attention to them except at the local level 
where people are actually employed, and so it's very important.
    And the Navy tries to encourage companies to diversify, to 
spread it out for reasons of redundancy and common sense and 
also to appeal pretty blatantly to the Congress to support 
things because it has a direct impact on people in their 
districts. So I don't know all the details of it, but I can 
tell you that the general practice is to encourage companies to 
have a number of suppliers to give you an option economically 
and also to encourage the kind of support that we need at the 
top.
    Chairman Lamb. Great. Thank you. And I'll turn now to 
Representative Stevens.
    Ms. Stevens. Great. I referenced the article from Pinker, 
Steven Pinker, who's a thinker, right, and I didn't mean for 
that to rhyme, but he's a psychologist. And in his article I 
just want to make reference to this. He said--in talking about 
nuclear energy, he said, ``Despite its demonstrable safety, 
nuclear power presses several psychological buttons.'' And then 
he goes on to list what those buttons are, the risks that 
people associate some of the shock around what, you know, comes 
with--maybe thoughts around radiation of which Dr. Apt said we 
don't have any health--negative health effects. In fact, we 
only have health benefits. We have steam, you know, billowing 
from the tower, which is great, and he also mentioned that 
people feel better about eliminating a single tiny risk 
entirely than minimizing a risk from all hazards combined.
    And since we have a panel of experts and we have jobs that 
we want to keep because they're full of technical talent and 
industrial might, and Beaver County has got a lot in common 
with Oakland County, Michigan, western Wayne County, Michigan, 
where I represent. I'm wondering if you--from your knowledge 
standpoint if you could just maybe make any mention of 
awareness that you have with these local efforts around nuclear 
technology adoption and also, as we talked about some of the 
new plants and the opportunities for what we can create, who's 
raising their hand first? I mean, who's--Michigan, obviously, 
we've adopted some of this. We've put into--we've preserved a 
couple of our plants. We've had this discussion around what 
this means for our regional economy. But we want to create more 
plants. We don't want to just save the one that's here. We want 
to create more. So who's putting--what's happening at the local 
level?
    Congress has got a role to play here, OK? We legislate. We 
should do, by the way, all of our hearings in the field. I love 
this, get us out of the swamp. Let's keep coming in here.
    But yet really--and I know we've got some local leaders in 
the room. If you really want to get something done, you've got 
to start from the bottom up, your mayors, your township 
supervisors, your State officials. Who's putting their hand up 
from what you've seen? And then any other, you know, points on 
how we can kind of push back against these psychological 
issues. Dr. Lyons?
    Dr. Lyons. Let me just take a crack at a few responses, and 
I'm sure my colleagues can add a lot more. A number that sticks 
in my mind is that the average safety of workers at a nuclear 
power plant is roughly comparable to the safety of workers in 
an office environment, which is at least an interesting fact 
that many people may not know.
    I think one of the important ways of publicizing the safety 
of nuclear power plants is to remember that all the workers at 
those plants live in that vicinity, and the resident inspectors 
from the NRC are right there in those plants living with their 
families in that community.
    The last point I would like to make, is that where there 
are surveys of the acceptability of nuclear power in different 
localities around the country, the numbers are very high in 
places where people understand nuclear power. I would assume 
that here in Shippingport, it's like other similar communities. 
People here understand nuclear power, they understand the 
incredibly low risks, and they understand the very high safety 
standards of these plants. In most communities like this one, 
the support for concentration or expansion of nuclear power is 
in the 80 percent range.
    Ms. Stevens. Yes. Great. Continue to do it from the bottom 
up. Did you want to jump in here?
    Adm. Fallon. Yes. I'll give you--share an anecdote. So a 
number of years ago I was appearing before different panel in 
Washington on the other side of the green felt table, and I was 
becoming irritated. I was younger, had some arrogance those 
days, and I was really grinding my teeth because the--some of 
the witnesses who were spouting absolute complete falsehoods 
and it was just--kept coming on and coming on and I was just--
and so finally, the Chairman said, all right, Admiral, what do 
you have to say about that?
    So I was very impertinent and I said, Mr. Chairman, in my 
business we deal in facts, and I haven't heard many today. Big 
mistake. So the Chairman leapt across the table and put his 
finger close to my chest and said let me tell you something, 
Admiral. Up here, we deal in perceptions, and the perception is 
you guys screwed up. So I tried to learn from that, and I think 
this is a really good example that you brought up.
    Ms. Stevens. Well, I'm going to make--go ahead.
    Adm. Fallon. No, so we have these perceptions out there, so 
it's kind of like back to the 1940s and early 1950s, atomic, 
uh-oh, you know, that thing, you know, you're going to glow. I 
remember joking in the first days of Navy nuclear power we'd 
say, oh, the guys on the ship, hey, you're starting to glow. 
You know, it's a joke.
    But people have these ideas, and they're perceptions. So 
how do you take on the perceptions? And my experience is that 
you take them on by being smart, learning, having the facts, 
but then you have to communicate and explain to people the 
reality of the way things are.
    And I think your comments, Dr. Lyons, are right on. People 
that live and work around these plants for decades--I've lived 
on nuclear-powered ships, slept 50 feet off the reactors for 
months and years on end and many, many days. I'm still here. 
I'm not glowing too badly, am I?
    But I think we need to really make an effort to do that, 
and it's something that people are beginning to get concerned 
now. I see Governors and other people in States are recognizing 
they're being backed up against a wall because these things may 
go away. Now what are we going to do, folks? So they're kind of 
getting it, and I think hopefully they'll start to work down at 
the local level.
    But I believe that the very useful role for you--and I 
commend, again, your willingness to hold this hearing and come 
all the way out here to do this--is to try to put in place 
policies at the national level that will enable things to 
happen. And so incentivizing the R&D--I mean, this country is 
phenomenal, look at the things--look at a decade ago, the 
handwringing over the space program. Oh, my God, we're going 
down the tubes. We've ceded everything, we're--you know, we're 
nowhere. Well, guess what? Industry all of a sudden came out of 
nowhere and they have--there's a series of rockets and 
airplanes and things if you follow news, so who knows what the 
future is, but it's certainly turned around a lot.
    We can do the same thing here if the right incentives are 
put in place with the right policies. And there are a whole 
host of things--and my colleagues here know this a lot better 
than I do--that are in place that are de-incentivizing people 
to take the reasonable risks that are necessary I think to give 
us a future. Thank you.
    Ms. Taylor. Yes. I'll add a couple thoughts. I agree with 
you that it's extremely difficult for anyone to understand risk 
and compare risks of things. I myself am, I know, irrationally 
afraid of snakes, though there's no data to support that.
    But I have seen over the course of my career a big shift 
from strong opposition to nuclear power to now strong support 
that's growing, you know, it's becoming more widespread. I 
think two things are going on that are accelerating that and 
may be useful to further leverage. One is the change in the 
view from the environmental community from nuclear waste being 
a dangerous thing and concern about used fuel to recognizing 
the environmental friendliness of nuclear and the potential 
large role nuclear can play in decarbonization.
    And the other thing that I've seen is a real fueling of 
interest from young people, people who are in school right now. 
I think there was a big success when the DOE decided to invest 
a lot of its research in universities, I don't know, maybe 15 
years ago. Pete, you may have been responsible for that 
actually. We're now seeing these people who are out of college 
5 years, 10 years leading this charge in the advanced reactor 
space, leading the companies actually and challenging the rest 
of us who have been in the industry for a long time on the pace 
at which we can achieve change and ready new technologies for 
the industry. So I think there are challenges around 
communications, but I think there's a lot of hope and 
opportunity in the future.
    Chairman Lamb. Absolutely, thank you. And we have touched a 
little bit today and I'm sure we will as we wrap up on some of 
the proactive things that the Federal Government can do. But 
apart from, you know, specific things like loan guarantees and 
working on how the licensing works and production tax credits 
and doubling down on research, the biggest thing we need to do 
is send this signal like you're referencing to the 
universities, to young people, to the market that this industry 
is here to stay and that there will be nuclear plants today and 
nuclear plants tomorrow so that when people want to go into 
business to make the supplies or they want to choose it as 
their major in college, they'll do that and there will be the 
pipeline there to make it all thrive and survive.
    Representative Foster, any parting shots?
    Mr. Foster. Thank you, and thank you, Chairman.
    I guess maybe I'd like to just talk to the audience for a 
moment. You know, it is not an accident that Chairman Conor 
Lamb was chosen, despite being only a redshirt freshman, to be 
the Chair of the Energy Subcommittee on the Science Committee. 
You know, it is--I've been--I was a scientist most of my life, 
have been in politics for about 10 years, and in that time you 
sort of--you learn to spot who the leaders of the future are 
going to be. And when you see someone who is as smart, is a 
good guy and a leader like you see in him, you--every one of 
you who gets a chance to vote for him should be very, very 
proud that you have a Representative like that.
    The other thing that we're doing out here--and, this 
afternoon, we're all going to be going to the--to NETL, the 
National Energy Technology Laboratory, one of the national 
labs. The other hat that I have on here, I'm one of the Co-
Chairs of the National Laboratory Caucus, which is a bipartisan 
group, to make sure that Congress fully appreciates all of the 
jewels in the research and development crown of this country, 
you know, that locations like Shippingport are historic because 
of the commercial and technical significance and also the 
national laboratories. NETL, which is--as you've all--probably 
all know, not far from here, is absolutely crucial to--not only 
to the jobs that it produces but to the technological future of 
this country. And so I'm very proud to be a part of that as 
well.
    Just I guess I had one last question having to do with 
electrical supply and cars and electrical cars because, you 
know, one of the things that make it difficult to support a 
very large nuclear fleet in this vicinity is that a lot of the 
load was for steel industries that has gone away. But this is 
also, you know, probably the center of the universe for self-
driving cars and new technology. I know in my district we have 
Argonne National Lab, which is in the process of developing 
batteries that will have 5 times the range and will make 
electric cars, you know, really preferable to fossil-fuel-
powered cars. But what will that do to the need for electrical 
grid capacity? Dr. Apt?
    Dr. Apt. So I drove here in a Chevy Volt, and, you know, 
we've spent a long time looking at that. Electric demand in 
this country went up at almost 8 percent a year from 1950 to 
1973. Then it transitioned to linear growth. There's a big 
difference between exponential and linear. And then in 2007 it 
went flat, where it stayed. And so folks are looking at what 
the future may bring.
    If we have more electric vehicles, which will help the 
environment, it should go up. And when it goes up, if it does 
transition again to growth, then keeping our existing nuclear 
fleet is going to be terribly important because if that goes 
away and we fill in with fossil fuel, we are in deep trouble.
    Mr. Foster. Thank you. And thank you, Chairman Lamb, again, 
for holding this hearing.
    Chairman Lamb. Thank you. Representative Casten.
    Mr. Casten. I'm going to be pretty brief. Thank you again, 
Chairman, for pulling this together and everybody for coming. 
We--all of us on this side of the panel serve on multiple 
committees, but we're here in our capacity on the Science 
Committee where our jurisdiction is essentially deciding what 
the United States should spend its research dollars and how 
much of those dollars should be, and then holding people 
accountable in our oversight role.
    There's been a consistent theme on this panel about the 
potential for advanced nuclear technology, and, you know, I'd 
start with Ms. Taylor but just welcome your thoughts as we 
leave here, what specific programmatic areas would you really 
like to see an increased focus from the Federal side, you know, 
where we can really catalyze some activity and I--you know, the 
electric power research industry I imagine you're pretty close 
to that. What would you recommend that we take back as we think 
about what we're going to fund in----
    Ms. Taylor. Well, I'll----
    Mr. Casten [continuing]. Upcoming budget cycles?
    Ms. Taylor. I'll speak to a couple things. One is to 
recognize that there is a strong link between a lot of the 
research that's needed for advanced reactors and the plants 
that are operating today. So, for example, in the area of 
advanced technology fuel, we're looking at new materials that 
can make fuel more tolerant in the case of an accident, but 
then we're finding bringing in some of the concepts from the 
advanced reactors of going to higher enrichment fuel, for 
example, can bring nearer-term economic benefits to the plants 
today while readying the regulator, the supply chain, and the 
designers for the plants of tomorrow. So I think there's a lot 
of opportunity in that space. What are those things that can be 
accelerated to help accelerate the availability of advanced 
reactors while potentially bringing value to plants today?
    The adoption of all the modern technologies that are going 
on in the world around us to these existing plants is an area 
where there's big opportunity for, you know, sensors, 
monitoring, data analytics, using things like drones and 
robotics for inspections all help bring, you know, better 
operation today and ready the future for the designers and the 
regulatory aspect, which is important and probably a critical 
path to the commercial availability of advanced reactors.
    Mr. Casten. Yes.
    Dr. Lyons. I certainly agree with the comments from Ms. 
Taylor, but let me just added another very strong need in this 
country, as you look at the advanced reactor concepts, is for 
testbed capabilities for those reactors. For example, I 
mentioned TerraPower earlier and Mr. Gates. They had to go to 
Russia to get some of their test capabilities because we don't 
operate a fast spectrum reactor in this country. One of the 
projects that is now being seriously considered within the DOE 
and Congress is the so-called Versatile Test Reactor, which 
would be a fast reactor. It would return the U.S. to a 
leadership position in fast reactors, a position we held in 
earlier decades.
    So there definitely are testbed requirements, but as you 
look toward the advanced reactors, with nonlight water 
coolants, there are very definite needs for advanced test 
capabilities. These would logically be built at some of the 
national laboratories that have the expertise to build and 
operate such facilities. It would then be available to a vast 
number of advanced reactor startup companies around the country 
that need these test capabilities.
    Mr. Casten. Thank you.
    Chairman Lamb. OK. Thank you. Before we bring the hearing 
to a close, I just wanted to say two more thank yous. We are 
here in this room right now because of the kindness and 
generosity of the people of Shippingport, who have welcomed us 
today. So to any Shippingport residents or local elected 
officials or, you know, government officials that are with us 
today, thank you for having us. We do have two members of local 
law enforcement with us in the back who have been watching over 
us the whole time and standing while doing so, so thank you, 
gentlemen, for doing that and for keeping us safe.
    And then finally, I wanted to recognize we have several 
staff Members from Congress in attendance with us today, too, 
you can see at the table here and one behind me, and they're 
really the people that make Capitol Hill run every day, and 
they made sure that this place was all set up perfectly and 
ready to go. They prepare us, they get us where we need to go 
on time, pretty much always behind-the-scenes. The members of 
my congressional office are the same way. There are several of 
them all across the back of the room. So I just wanted you to 
know the major, major contribution that they make in making 
your government work every day and making hearings like this 
happen day in and day out in Washington, DC. and here. So we're 
very thankful for--to all of them for their work in getting us 
here and making this possible.
    With that, the record will remain open for 2 weeks for any 
additional statements by the Members and for any additional 
questions the Committee may ask of the witnesses.
    The witnesses are now excused with a final thank you from 
us for your participation, and the hearing is now adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]

                                 <all>
</pre></body></html>
